                                                                                          Department of Energy
                                                                                        Office of Inspector General




 Inspection Report on "Alleged Improper Use of Patented Technology at the
                       Idaho National Laboratory"
                               INS-L-13-02
                             August 12, 2010
This is a summary of Inspection Letter Report INS-L-13-02, "Alleged Improper Use of Patented
Technology at the Idaho National Laboratory," issued on November 5, 2012. The complete report is not
available for public disclosure. Public release is controlled pursuant to the Freedom of Information Act.


The Office of Inspector General (OIG) received a congressional request on behalf of a constituent alleging
that the Idaho National Laboratory (INL) planned to market a constituent's patented technology in direct
competition with the private industry. Specifically, it was alleged that the constituent pioneered the use of
a particular technology and that INL planned to work with other Government agencies using that
technology while excluding the constituent.

Our inspection found no evidence to support the allegations that INL improperly used patented technology
belonging to the constituent or that INL planned to compete with the constituent by entering into contracts
with other Government agencies involving the particular technology.

The details of this report are Official Use Only.
